                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                       ACTION MEMORANDUM
                                                                                          11
     TO: AIGI       File Number: 1-97090053                                                   December 3 1,2001




         Action: Case Close                                                               ~
           1. On September 16, 1997 an anonymous letter was sent alleging a scheme involving
              submission of duplicate proposals by t   o defraud the govemment. T
                                       m


                                                                                                -
              the investigation is Dr.               CEO of-

           2. SA    m,                                                                   I
                               O I G , initiated the investigation. The case is still pending based on
               additional review by Main DOJ to determine if an indictment will take piace. The case has
               been in a holding pattern for the past year. As the case started in 1997, NSF was involved
                                                                                          ]I
               in producing documents to support the charge of duplication of proposals however as the
               case developed with ,                  the AUSA in Arizona, it was deterdined to be of a
               financial nature involving over billing and was transferred to Main ~ustidkto
              ,-       Trial Attorney. At this time, and due to the fact that DOJ was notII11 prosecuting
               based on the duplication of proposals, NSF's resources were withdrawn fiom the case.
                                                                                        I
           3. All evidentiary material is in place for indictment, however, the monetary~lloss to the
                                                                                          II
                govemment does not include NSF program monies. Under the direction of the AIGI, this
                case is closed and NSF OIG is taking no further action at this time. The I        G case
                agent has been notified of this closing, and pending the outcome of the rehew for
                indictment by DOJ, the case may be re-opened at a future date.
                                                                                         I

11                                                   Cleared bv:
